APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Opinion of the United States Court of Appeals for
the Fifth Circuit (October 16, 2019) .................. 1a
Order of the United States District Court for the
Southern District of Texas (July 31, 2018)...... 17a
Order of the United States District Court for the
Southern District of Texas Granting Motion
for a Stay (March 2, 2018)................................ 44a

App.1a
OPINION OF THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT
(OCTOBER 16, 2019)
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
________________________
DEJENAY BECKWITH, on her Own Behalf and
Others Similarly Situated; BEVERLY FLORES, on
her Own Behalf and Others Similarly Situated,

Plaintiffs-Appellants,
v.
CITY OF HOUSTON; MAYOR SYLVESTER
TURNER; POLICE CHIEF ART ACEVEDO;
HOUSTON FORENSIC SCIENCE CENTER;
PETER STOUT; ANNISE PARKER; LEE P.
BROWN; KATHY WHITMIRE; CHIEF CHARLES
MCCLELLAND; CHIEF CLARENCE BRADFORD;
CHIEF SAM NUCHIA,

Defendants-Appellees.
________________________
No. 18-20611
Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:17-CV-2859
Before: BARKSDALE, STEWART,
and COSTA, Circuit Judges.

App.2a
PER CURIAM:
This case is a putative class action based on
claims by Plaintiffs Dejenay Beckwith and Beverly
Flores that the City of Houston and individual city
policy makers failed to test Sexual Assault Kits
(“SAKs”) following Plaintiffs’ sexual assaults by nonparty perpetrators. Plaintiffs filed suit against the
following Defendants: the City of Houston, Texas; Dr.
Peter Stout, the 2017-appointed CEO of the Houston
Forensic Science Center; the former Mayors of the
City of Houston, Annise Parker (2010-2016), Bill
White (2004-2010), Lee P. Brown (1998-2004), and Bob
Lanier (deceased) (1992-1998); and former Police Chiefs
of the City of Houston, Charles McClelland (2010-2016),
Harold Hurtt (2004-2009), Clarence Bradford (19972004), Sam Nuchia (1992-1997), and Lee P. Brown
(1982-1990). For the reasons stated herein, we
AFFIRM.
I.

Factual and Procedural Background

Plaintiffs’ second amended complaint contains
the following allegations:
A. Dejenay Beckwith’s Facts
Beckwith was sexually assaulted on April 2, 2011.
She immediately notified the Houston Police Department (“HPD”) and went to Memorial Hermann Southwest Hospital where the hospital staff collected a SAK.
An HPD police officer then transported Beckwith’s
SAK to HPD for testing. HPD did not contact her
 Pursuant to 5th Cir. R. 47.5, the court has determined that
this opinion should not be published and is not precedent except
under the limited circumstances set forth in 5th Cir. R. 47.5.4.

App.3a
again until 2015, when HPD told her that it had a
suspect in her sexual assault case. She phoned HPD
several months later to talk about the sexual assault
but HPD did not call back.
HPD next contacted her in 2016 to tell her the
suspect’s name. Later that year, the Harris County
District Attorney’s Office notified her that her SAK
had been tested and matched with HPD’s suspect,
David Lee Cooper (“Cooper”). Cooper had a long
history of sexually assaulting women, including a
minor child, dating back to 1991. Cooper’s DNA had
been included in the Combined DNA Index System, a
DNA database system that matches DNA profiles
of offenders to that of victims, since 1991. Cooper’s
previous sexual assault cases bear a similar fact
pattern to Beckwith’s assault. This contact with HPD
in late 2016 was the first time she learned that
Defendants delayed in testing her SAK. Had the City
of Houston entered any of Cooper’s victims’ genetic
evidence from the untested SAKs, Cooper would
have been stopped before he had a chance to sexually
assault Beckwith. HPD had her identifying information
and should have informed her that her SAK had
gone untested for many years.
B. Beverly Flores’ Facts
On September 20, 2011, Flores was raped by a
home intruder. Flores contacted HPD after the perpetrator fled. She insisted that charges be filed against
the perpetrator and “a SAKS was done,” although
she does not provide the name of the facility that
administered her SAK. Two weeks after the sexual
assault, an HPD detective visited Flores and told her
that her SAK would be processed within three months.

App.4a
Flores’ perpetrator, Domeka Donta Turner
(“Turner”), had committed a prior sexual assault on
September 9, 2011. In August 2014, a routine DNA
database run showed that there was a match between
Flores’ SAK and Turner. Had Houston run the results
of her test on the DNA database sooner, Turner
would have been apprehended earlier and “Flores
would not have spent several years worried and concerned about the threat to herself and her children.”
The City of Houston never notified Flores prior
to 2017 that her SAK had been delayed in testing or
that any other Houston rape victim had their SAKs
delayed in testing. HPD had her identifying information
and could have easily contacted her about the delay
in testing. “The City of Houston, Mayor Annise
Parker and her chiefs of police were aware of previous
‘failure-to-test-rape-kit’ lawsuits throughout the United
States and this was a conscious decision by Mayor
Parker and the City of Houston, to prevent rape
victims from finding out the facts so that they would
not make claims and sue the City of Houston and its
employees and elected officials.”
C. Additional Facts
Prior to April 2014, HPD routed sexual assault
reports to two units: an adult investigative unit for
victims 17 years of age and older, and a juvenile
investigative unit for victims under 17. According to
Plaintiffs, both units adopted a practice of submitting
all SAKs for testing. In 2010, HPD determined that
it held approximately 4,220 SAKs in cold storage that
had not been tested by a crime lab. As a result, the
City of Houston organized the Houston Forensic
Science Center. In 2013, the City of Houston devoted

App.5a
$2.2 million to test all untested rape kits, but the
Houston Forensic Science Center, the City of Houston,
and the individually named Defendants decided to
test only a fraction of the SAKs. Plaintiffs allege that
Defendants, with deliberate indifference, maintained
a policy, practice and/or custom for the past 30 years
of not submitting SAKs for testing, not reviewing test
results, and failing to preserve evidence. Plaintiffs add
that this policy has a discriminatory purpose and
adverse impact on females.
D. Procedural History
On September 24, 2017, Beckwith filed her original putative class action complaint against Defendants. On December 20, 2017, Beckwith filed her first
amended complaint, adding Flores as an additional
named plaintiff. In their second amended complaint,
Plaintiffs sued all defendants in their individual and
official capacities under 42 U.S.C. § 1983 for alleged
violations of the Due Process and Equal Protection
Clauses. They further asserted alleged violations of
substantive due process, the Fourth Amendment, the
Fifth Amendment “Takings” Clause, and negligence
claims under state law. They also brought claims for
conspiracy to interfere with their civil rights under
42 U.S.C. § 1985 and for negligently failing to prevent
civil rights violations under 42 U.S.C. § 1986. Plaintiffs
seek “damages for violation of civil rights under color
of law, injunctive relief requiring Defendants to change
the methods used to investigate sexual assault and for
the award of attorney fees and cost[s].”
Defendants filed an amended motion to dismiss
Plaintiffs’ second amended complaint under Federal
Rules of Civil Procedure 12(b)(1) and 12(b)(6), or, in

App.6a
the alternative, a motion for summary judgment. The
district court granted Defendants’ Rule 12(b)(1) motion
to dismiss Plaintiffs’ claims under § 1983 for alleged
violations of the Due Process and Equal Protection
clauses and Plaintiffs’ state law negligence claims. The
district court also granted Defendants’ Rule 12(b)(6)
motion to dismiss Plaintiffs’ remaining claims asserting
42 U.S.C. §§ 1985 and 1986 claims along with alleged
violations of substantive due process, the Fourth
Amendment, and the Fifth Amendment “Takings”
Clause. This appeal ensued.
II.

Standard of Review

We review de novo the district court’s grant of a
motion to dismiss under Rule 12(b)(6) for failure to
state a claim. See Copeland v. Wasserstein, 278 F.3d
472, 477 (5th Cir. 2002). To survive a Rule 12(b)(6)
motion, plaintiffs must plead “enough facts to state
a claim to relief that is plausible on its face.” Bell
Atlantic Corp. v. Twombly, 550 U.S. 544, 570 (2007).
That is, they must “‘raise a right to relief above the
speculative level.’” Nationwide Bi-Weekly Admin., Inc.
v. Belo Corp., 512 F.3d 137, 140 (5th Cir. 2007) (quoting Twombly, 550 U.S. at 570).
III. Discussion
A. Motion to Dismiss 42 U.S.C. §§ 1983, 1985,
and 1986 Claims and Negligence Claims
Plaintiffs assert that the district court erred by
dismissing their claims under § 1983 and negligence
claims under state law pursuant to Rule 12(b)(1) as

App.7a
barred by the statute of limitations.1 However, because
a 12(b)(1) motion based on timeliness invokes Rule
12(b)(6), we evaluate this motion under the more
appropriate 12(b)(6) standard. See Watts v. Graves,
720 F.2d 1416, 1422-23 (5th Cir. 1983) (per curiam)
(“The statute of limitations [in a § 1983 action] may
serve as a proper ground for dismissal under Federal
Rule of Civil Procedure 12(b)(6) . . . .”); see also Jones v.
Alcoa, Inc., 339 F.3d 359, 366 (5th Cir. 2003) (“A statute
of limitations may support dismissal under Rule
12(b)(6) . . . .”); Songbyrd, Inc. v. Bearsville Records,
Inc., 104 F.3d 773, 775 n.3 (5th Cir. 1997) (stating
that the affirmative defense of limitations may properly
be asserted in a Rule 12(b)(6) motion); Triplett v.
Heckler, 767 F.2d 210, 211-12 (5th Cir. 1985) (stating
that the defendant’s 12(b)(1) motion to dismiss based
on timeliness invoked Rule 12(b)(6), not Rule 12(b)(1));
Carcamo-Lopez v. Does 1 through 20, No. EP-09-CV371-KC, 2011 WL 318148, at *2 (W.D. Tex. Jan. 29,
2011) (treating defendant’s 12(b)(1) motion to dismiss
civil rights claims as a 12(b)(6) motion instead of
denying the motion).
1. Applicability of Texas’ 2-Year Statute
of Limitations
Plaintiffs advance four theories for why the limitations period should not apply to them: (1) a more
specific, five-year limitations period applies; (2) the
1 Plaintiffs also assert that the district court’s summary judgment
ruling based on the statute of limitations was premature because
the court should have first permitted full discovery on the
merits. However, the district court made clear that its ruling on
limitations was based on Defendants’ Rule 12(b) motions, not
summary judgment.

App.8a
limitations period was tolled for fraudulent concealment; (3) the limitations period was tolled under the
discovery rule; and (4) the limitations period was tolled
because Defendants’ conduct constituted a continuing
tort. We address each argument in turn.
First, Plaintiffs argue that the court should apply
the five-year limitations period for personal injury
claims arising from sexual assault to both their § 1983
and state law claims. See Tex. Civ. Prac. & Rem. Code
§ 16.0045(b). But Texas’ general personal injury limitations period is two years. Tex. Civ. Prac. & Rem. Code
§ 16.003(a); see also Burrell v. Newsome, 883 F.2d
416, 418 (5th Cir. 1989). And federal courts use the
forum state’s general personal injury limitations period
to govern claims under § 1983. Owens v. Okure, 488
U.S. 235, 240-41 (1989); King-White v. Humble Indep.
Sch. Dist., 803 F.3d 754, 759 (5th Cir. 2015); Moore
v. McDonald, 30 F.3d 616, 620 (5th Cir. 1994).
In Owens, the Supreme Court held that “where
state law provides multiple statutes of limitations for
personal injury actions, courts considering § 1983
claims should borrow the general or residual statute
for personal injury actions.” 488 U.S. at 249-50. In
King-White, we cited Owens and rejected essentially
the same argument Plaintiffs make here: that the
court should apply § 16.0045 to their claims under
§ 1983 against a school district for claims stemming
from sexual assault by a teacher. 803 F.3d at 761 (“[T]o
eliminate the ‘confusion and inconsistency’ that had
grown from this ‘practice of seeking state-law analogies
for particular § 1983 claims,’ . . . the [Supreme] Court
determined that all § 1983 claims should be subject
to ‘a simple, broad characterization’ as personal
injury actions for limitations purposes.”).

App.9a
Further, § 16.0045 has not been extended to civil
rights cases or beyond claims against perpetrators of
sexual assaults or those who may be directly or
vicariously liable for their actions. Plaintiffs have not
alleged that Defendants hired or exercised any control
over their perpetrators. Cf. Doe v. Catholic Soc. of
Religious & Literary Educ., Civ. A. H-09-1059, 2010
WL 345926, at *16 (S.D. Tex. Jan. 22, 2010) (applying
five-year limitations period where parishioner brought
an action against a diocese and church for alleged
negligence in allowing one of its priests to sexually
assault the parishioner when she was a minor);
Stephanie M. v. Coptic Orthodox Patriarchate Diocese,
362 S.W.3d 656, 660 (Tex. App.—Houston [14th Dist.]
2011, pet. denied) (applying five-year statute against
defendants whose negligence proximately caused the
sexual assault). As such, Plaintiffs’ claims under
§ 1983, like their state law negligence claims, are
governed by a two-year statute of limitations.
Second, Plaintiffs argue that fraudulent concealment tolls the statute of limitations. “When a federal
cause of action borrows a state statute of limitations,
‘coordinate tolling rules’ are usually borrowed as well.”
King-White, 803 F.3d at 764 (citation omitted). In
Texas, tolling of the statute of limitations may occur
where a defendant is “under a duty to make disclosure
but fraudulently conceals the existence of a cause of
action from the party to whom it belongs.” Borderlon
v. Peck, 661 S.W.2d 907, 908 (Tex. 1983). “Fraudulent
concealment will not, however, bar limitations when
the plaintiff discovers the wrong or could have discovered it through the exercise of reasonable diligence.”
Kerlin v. Sauceda, 263 S.W.3d 920, 925 (Tex. 2008).

App.10a
Plaintiffs contend that Defendants fraudulently
concealed the delay in testing of Plaintiffs’ SAKs.
On February 13, 2013, the Houston Mayor’s Office
published a press release detailing the backlog in
SAK testing at HPD and the steps that the City of
Houston was taking to clear up the backlog. In
December 2013, HPD launched a hotline for sexual
assault victims to obtain more information about their
cases. HPD advertised the hotline through billboards,
television, and bilingual pamphlets distributed throughout the city. The backlogged testing of SAKs was
public information that Defendants were not hiding.
Moreover, had Plaintiffs investigated the status of their
SAKs, they would have learned that their SAKs had
remained untested. Rather than proactively contact
HPD, Plaintiffs waited for HPD to contact them and
made no further inquiry even when the circumstances
would have led a reasonable person to inquire further.
Accordingly, we hold that the doctrine of fraudulent
concealment does not apply here.
Third, Plaintiffs argue that the limitations period
was tolled under Texas’ discovery rule. The discovery
rule applies if the “nature of the injury incurred is
inherently undiscoverable and the evidence of injury
is objectively verifiable.” King-White, 803 F.3d at 764
(quoting Childs v. Haussecker, 974 S.W.2d 31, 36-37
(Tex. 1998)). But a plaintiff seeking to employ the
discovery rule must use diligence to investigate the
facts establishing the elements of her cause of action.
Willis v. Maverick, 760 S.W.2d 642, 644 (Tex. 1988).
For the reasons discussed above, we agree with the
district court that Plaintiffs did not exercise diligence
in their cases. Therefore, we hold that the discovery
rule does not apply here to toll the statute of limitations.

App.11a
Finally, Plaintiffs argue that the statute of limitations should be tolled because Defendants’ conduct
constitutes a continuing tort. “In a continuing-tort
case, the wrongful conduct continues to effect additional
injury to the plaintiff until that conduct stops.” Gen.
Universal Sys. Inc. v. HAL, Inc., 500 F.3d 444, 451
(5th Cir. 2007) (quoting Upjohn Co. v. Freeman, 885
S.W.2d 538, 542 (Tex. App.—Dallas 1994, writ denied)).
“For continuing torts, ‘the cause of action is not complete and does not accrue until the tortious acts have
ceased.’” Id. (quoting Twyman v. Twyman, 790 S.W.2d
819, 821 (Tex. App.—Austin 1990), rev’d on other
grounds, 855 S.W.2d 619 (Tex. 1993)). Plaintiffs have
not alleged that Defendants are continually committing
a tort against them, nor could they—Defendants
tested Plaintiffs’ SAKs by 2014. Instead, Plaintiffs rely
on Defendants’ continual failure to timely test SAKs for
other putative class members. However, this argument
fails where Plaintiffs can only show one instance of
allegedly wrongful conduct that was not repeated
against them and that occurred outside the limitations
period.
Based on the foregoing, we hold that the twoyear statute of limitations bars Plaintiffs’ state law
negligence claims and their claims under § 1983.
2. Accrual of Claims Under 42 U.S.C.
§ 1983 and Negligence Claims
Plaintiffs also contest the accrual date of their
§ 1983 and negligence claims. Accrual of a § 1983 claim
is governed by federal law. “‘Under federal law, the
[limitations] period begins to run the moment the
plaintiff becomes aware that [s]he has suffered an
injury or has sufficient information to know that [s]he

App.12a
has been injured.’” Walker v. Epps, 550 F.3d 407, 414
(5th Cir. 2008) (quoting Russell v. Bd. of Trs. of the
Firemen, 968 F.2d 489, 493 (5th Cir. 1992)). Awareness
is found via two elements: “(1) The existence of the
injury; and (2) causation, that is, the connection
between the injury and the defendant’s actions.”
Piotrowski v. City of Hous., 51 F.3d 512, 516 (5th Cir.
1995).
Plaintiffs claim that their claims under § 1983
accrued on “the date each Plaintiff was notified that
her kit had not been previously tested, which for both
Beckwith/Flores was in late 2016.” Plaintiffs assert
that Defendants were required to notify Plaintiffs of
the delayed testing of their SAKs. But “[a] plaintiff who
has learned of facts which would cause a reasonable
person to inquire further must proceed with a reasonable and diligent investigation, [sic] and is charged
with the knowledge of all facts such an investigation
would have disclosed.” Jensen v. Snellings, 841 F.2d
600, 607 (5th Cir. 1988).
Flores alleges that two weeks after her assault
in September 2011, Defendants told her that her
SAK would be processed in three months’ time. As
the district court noted,
[e]ven assuming that the relevant injury
was Defendants’ delay in the testing of her
SAK, rather than her sexual assault, Flores’
§ 1983 claims would have accrued after three
months had passed and her SAK remained
untested. A reasonable person in Flores’
position would have followed up with Defendants regarding the testing of her SAK after
three months had passed.

App.13a

Beckwith v. City of Hous., No. 4:17-CV-02859, 2018 WL
4298345, at *7 (S.D. Tex. July 31, 2018).
Beckwith does not allege that Defendants gave
her a timeline for her SAK’s testing. However, after
Defendants administered her SAK in April 2011, she
did nothing for years. As the district court noted,
“even after HPD contacted her [in 2015 to notify her
that it found a suspect, she] did not follow up until
she unsuccessfully phoned HPD several months later
and HPD did not return her call.” Id. Accordingly,
Plaintiffs had facts by the end of 2011 to support a
§ 1983 claim that Defendants had delayed testing of
their SAKs, but they did not act on those facts within
the two-year statute of limitations.
As to Plaintiffs’ state law claim, accrual of a
personal injury cause of action under Texas law
generally “occurs on the date ‘the plaintiff first becomes
entitled to sue the defendant based upon a legal wrong
attributed to the latter’, even if the plaintiff is unaware
of the injury.” Vaught v. Showa Denko K.K., 107 F.3d
1137, 1140 (5th Cir. 1997) (quoting Zidell v. Bird, 692
S.W.2d 550, 554 (Tex. App.—Austin 1985, no writ);
see also S.V. v. R.V., 933 S.W.2d 1, 4 (Tex. 1996) (“As
a rule, we have held that a cause of action accrues
when a wrongful act causes some legal injury, even if
the fact of injury is not discovered until later, and
even if all resulting damages have not yet occurred.”).
Plaintiffs’ second amended complaint alleges that
Defendants should have tested Plaintiffs’ SAKs within
30 days of collection. See Tex. Gov’t Code § 420.042(a)
(“A law enforcement agency that receives evidence of
a sexual assault or other sex offense . . . shall submit
that evidence to a public accredited crime laboratory
for analysis not later than the 30th day after the date

App.14a
on which that evidence was received.”). Beckwith’s
SAK was collected on April 2, 2011. Flores’ SAK was
collected on or about September 20, 2011. Therefore,
Beckwith’s claim would have accrued in May 2011
and Flores’ in October 2011, regardless of when
Defendants notified them of the delay in testing.
Because Plaintiffs brought their state law causes of
action approximately six years later, on September
24, 2017, the two-year statute of limitations bars
Plaintiffs’ state law causes of action.
3. Plaintiffs’ Claims Under 42 U.S.C.
§§ 1985, 1986
Plaintiffs also claim that Defendants conspired
to interfere with Plaintiffs’ civil rights in violation of
42 U.S.C. § 1985 and negligently failed to prevent a
known conspiracy to interfere with Plaintiffs’ civil
rights in violation of § 1986. “Because there is no
federal statute of limitations for actions brought pursuant to 42 U.S.C. §§ 1983 and 1985, federal courts
borrow the forum state’s general personal injury limitations period.” Balawajder v. Carpenter, 1993 WL
152087, at *1 (5th Cir. 1993) (per curiam) (citing Helton
v. Clements, 832 F.2d 332, 334 (5th Cir. 1987)). In a
§ 1985 claim, “the actionable civil injury to a plaintiff
results from the overt acts of the defendants, not
from the mere continuation of a conspiracy.” Helton,
832 F.2d at 335. Thus, “any cause of action against
the defendants accrued as soon as [the plaintiffs] knew
or should have known of the overt acts involved in
the alleged conspiracy.” Id. For the reasons already
stated regarding Plaintiffs’ claims under § 1983, Plaintiffs’ claims brought under § 1985 are also dismissed.

App.15a
A § 1986 cause of action is dependent on a
claimant’s successful pleading of a § 1985 claim first.
See Hamilton v. Chaffin, 506 F.2d 904, 914 (5th Cir.
1975) (“Because of th[e] failure to state a claim
cognizable under Section 1985(3), appellant may not
recover under the interrelated, dependent cause of
action under Section 1986 . . . for neglecting to prevent
a known conspiracy under Section 1985”); see generally
McVea v. Swan, No. SA:14-CV-73-DAE, 2014 WL
4471529, at *5 (W.D. Tex. Sept. 10, 2014) (“As stated
in the statute itself, in order to establish a violation
of § 1986, a plaintiff must first establish a violation
of § 1985.”). Claims under § 1986 are governed by a
statute of limitations of one year. See Balawajder,
1993 WL 152087, at *3 (5th Cir. 1993) (per curiam)
(“Unlike §§ 1983 and 1985, § 1986 has its own statute
of limitations which requires commencement of a suit
within one year after the cause of action accrues.”).
Since Plaintiffs’ § 1985 claims are time-barred, their
§ 1986 claims necessarily fail.
B. Motion to Dismiss Remaining Claims
Plaintiffs aver that the district court erred in its
Rule 12(b)(6) dismissal of their remaining claims
for violations of substantive due process, the Fourth
Amendment, and the Fifth Amendment Takings
Clause. Plaintiffs brought these claims separate and
apart from their other constitutional claims under 42
U.S.C. § 1983. However, we must consider these claims
under 42 U.S.C. § 1983 because a private right of
action is needed to assert a constitutional claim. We
have already held that the § 1983 claims are subject
to the applicable statute of limitations. Likewise, we
hold that these claims are also subject to the applicable
two-year statute of limitations and are therefore

App.16a
time-barred for all of the reasons already stated in
our foregoing analysis. Accordingly, these remaining
constitutional claims are dismissed.
IV. Conclusion
The district court’s judgment is AFFIRMED.

App.17a
ORDER OF THE UNITED STATES
DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF TEXAS
(JULY 31, 2018)
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
________________________
DEJENAY BECKWITH and BEVERLY FLORES,
Individually and on Behalf of
All Others Similarly Situated,

Plaintiffs,
v.
CITY OF HOUSTON, TEXAS, ET AL.,

Defendants.
________________________
Case No. 4:17-CV-02859
Before: Vanessa D. GILMORE,
United States District Judge.
Pending before the Court is Defendants’ Motion to
Dismiss under Rules 12(b)(1) and 12(b)(6) or, in the
alternative, Motion for Summary Judgment. (Instrument No. 33).
I.
This case is a putative class action based on the
claims by Plaintiffs Dejenay Beckwith and Beverly

App.18a
Flores that the City of Houston and individual city
policy makers failed to test Sexual Assault Kits
following Plaintiffs’ sexual assaults by non-party perpetrators. (Instrument No. 27 at 3-4). Plaintiffs filed suit
against the following Defendants: the City of Houston,
Texas, Dr. Peter Stout, the 2017 appointed CEO of the
Houston Forensic Science Center; the former Mayors
of the City of Houston Annise Parker (2010-2016),
Bill White (2004-2010), Lee P. Brown (Mayor 19982004, Police Chief 1982-1990), and Bob Lanier (now
deceased) (1992-1998); former Police Chiefs of the
City of Houston Charles McClelland (2010-2016),
Harold Hurtt (2004-2009), Clarence Bradford (19972004), Sam Nuchia (1992-1997), and Lee P. Brown in
his position as former Houston Police Chief (19821990). (Instruments No. 27 at 1; No. 33 at 27-28 n.7).
1.
Plaintiff Dejenay Beckwith (“Beckwith”) alleges
that on April 2, 2011, she was sexually assaulted by
David Lee Cooper. (Instrument No. 27 at 11-12).
Beckwith alleges that she immediately notified the
Houston Police Department (“HPD”) and went to
Memorial Hermann Southwest Hospital where the
hospital staff collected a sexual assault kit (“SAK”).
Id. at 12. A HPD police officer then transported Beckwith’s SAK to HPD for testing. Id. at 12-13. Beckwith
alleges that over the next five years, the City of
Houston never submitted her SAK for testing.
Beckwith alleges that at some unspecified date a
HPD detective called her and asked why Beckwith
“was on Bissonnet,” allegedly implying that she was
a prostitute. (Instrument No. 27 at 13). Beckwith
alleges that the HPD detective implied that Beckwith’s

App.19a
rape was her fault and discouraged her from filing a
report as it was unlikely the suspect would be caught
and that “these things happen to these types of
women.” Id.
HPD allegedly did not contact her again until
2015, when HPD told her that it had a suspect in her
sexual assault case. (Instrument No. 27 at 13). Beckwith alleges that she phoned HPD several months later
to talk about the sexual assault but that HPD did not
call back. Id.
Beckwith alleges that HPD contacted her next in
2016 to notify her of the suspect’s name. (Instrument
No. 27 at 13). Later that year, Beckwith alleges that
the Harris County District Attorney’s Office notified
her that her SAK had been tested and matched with
HPD’s suspect, David Lee Cooper (“Cooper”). Id. at 14.
Cooper allegedly had a long history of sexually assaulting women, including a minor child, beginning in 1991.
Id. Beckwith alleges that Cooper’s DNA had been
included in the Combined DNA Index System since
1991 (a DNA database system that matches DNA
profiles of offenders to that of victims). Id. at 14, 2122. Beckwith alleges that Cooper’s previous sexual
assault cases bear a similar fact pattern to Beckwith’s
assault. Id. at 14. Beckwith alleges that this contact
with HPD in late 2016 was the first time she learned
that Defendants delayed in testing her SAK. Id.
Beckwith alleges that had the City of Houston entered
any of Cooper’s victims’ genetic evidence from the
untested SAKs, Cooper would have been stopped
before he had a chance to sexually assault Beckwith.
Id. at 15. Beckwith further alleges that HPD had her
identifying information and should have informed
her that her SAK had gone untested for many years.

App.20a

Id. at 16. In December 2016, Cooper pleaded guilty to
the 2011 sexual assault of Beckwith. Id. at 15.
2.
Plaintiff Beverly Flores (“Flores”) alleges that she
was raped on September 20, 2011, by a home intruder.
(Instrument No. 27 at 18). Flores contacted HPD after
the perpetrator fled. Id. Flores alleges that when
HPD finally arrived, it treated Flores with disrespect,
saying that it was probably her boyfriend who had
sex with her and that HPD acted with disdain “as if
they did not believe her.” Id. Flores further alleges
that the police tried to dissuade her from filing charges.
Id. Flores alleges that she insisted that charges be
filed against the perpetrator and “a SAKS was done,”
although she does not provide the name of the facility
that took her SAK. Id. Flores further alleges that two
weeks after the sexual assault, a HPD detective visited
Flores and told her that her SAK would be processed
within three months. Id.
Flores also alleges that her perpetrator, Domeka
Donta Turner (“Turner”), had committed a prior sexual
assault on September 9, 2011. (Instrument No. 27 at
18). Flores alleges that in August 2014, a routine
DNA database run showed that there was a match
between Flores’ SAK and Turner. Id. at 19.
Although Flores alleges that Turner was charged
with aggravated sexual assault in December 2016,
Flores alleges that had Houston run the results of
her test on the DNA database sooner, Turner would
have been earlier apprehended and “Flores would not
have spent several years worried and concerned about
the threat to herself and her children.” (Instrument
No. 27 at 19).

App.21a
Flores alleges that the City of Houston never
notified her prior to 2017 that her SAK had been
delayed in testing or that any other Houston rape
victim had their SAKs delayed in testing. (Instrument
No. 27 at 19-20). Flores alleges that HPD had her
identifying information and could have easily contacted
her about the delay in testing. Id. at 20. Flores alleges
that “[t]he City of Houston, Mayor Annise Parker
and her chiefs of police were aware of previous
‘failure-to-test-rape-kit’ lawsuits throughout the United
States and this was a conscious decision by Mayor
Parker and the City of Houston, to prevent rape
victims from finding out the facts so that they would
not make claims and sue the City of Houston and its
employees and elected officials.” Id.
3.
Plaintiffs allege that prior to April 2014, HPD
routed sexual assault reports to two units: an adult
investigative unit for victims 17 years of age and
older, and a juvenile investigative unit for victims
under 17. (Instrument No. 27 at 25). According to Plaintiffs, both units adopted a practice of submitting all
SAKs for testing. Id. Plaintiff further alleges that in
2010, HPD determined that it held approximately
4,220 SAKs in cold storage that had not been tested
by a crime lab. Id. at 24. As a result, the City of
Houston organized the Houston Forensic Science
Center. Id. at 24-25. In 2013, the City of Houston
devoted $2.2 million to test all untested rape kits,
but allegedly the Houston Forensic Science Center,
the City of Houston, and the individually named
Defendants decided to test only a fraction of the
SAKs. Id. Plaintiffs allege that Defendants have
maintained a practice for the past 30 years of not

App.22a
submitting SAKs for testing, not reviewing test results,
and failing to preserve evidence. Id. at 26-29.
II.
Plaintiff Beckwith filed her Original Class Action
Complaint on September 24, 2017, against Defendants
the City of Houston, Texas, Mayor Sylvester Turner,
Police Chief Art Acevedo, the Houston Forensic Science
Center, the CEO of the Houston Forensic Science
Center Dr. Peter Stout, as well as Former Mayors of
the City of Houston Annise Parker, Bill White, Lee
P. Brown, Bob Lanier (deceased), and Kathy Whitmire
in addition to Former Houston Police Chiefs Charles
McClelland, Harold Hurtt, Clarence Bradford, Sam
Nuchia, Elizabeth Watson, and Lee P. Brown.
(Instrument No. 1).
On December 20, 2017, Beckwith filed her First
Amended Complaint, adding Beverly Flores as an
additional named Plaintiff. (Instrument No. 7). Plaintiffs assert that although Defendants informed Beckwith and Flores that their SAKs had been tested, the
putative class members have never been informed that
their rape kits have not been tested and are instead
warehoused indefinitely. (Instrument No. 7 at 22-23).
Plaintiffs therefore request that the putative subclasses
of similarly situated Plaintiffs consist of the following:
A.

All women and children who were sexually
assaulted in Houston, Harris County, Texas,
as the result of an offender not being
previously identified due to the rape kit
(sexual assault evidence kit) of a prior victim
not being submitted for timely testing by
the City of Houston, Harris County, Texas.

App.23a
B.

All women and children who were sexually
assaulted in Houston, Harris County, Texas,
and underwent invasive testing in the preparation of a rape kit (sexual assault evidence
kit), but whose rape kit was not submitted
for testing by the City of Houston, Harris
County, Texas in a timely manner.

(Instruments No. 7 at 6; No. 27 at 6).
On February 14, 2018, Defendants brought a
Motion to Dismiss Plaintiffs’ Complaints under Federal
Rules of Civil Procedure 12(b)(1) and 12(b)(6), or in the
alternative Motion for Summary Judgment. (Instrument No. 17).
Plaintiffs filed their Second Amended Complaint
on March 7, 2018, (Instrument No. 27), removing
Defendants Sylvester Turner, Houston Police Chief
Art Acevedo, Former Mayor Kathy Whitmire, and
Former Houston Police Chief Elizabeth Watson. Id.
Plaintiffs also removed the Houston Forensic Science
Center as a named Defendant, although its CEO, Dr.
Peter Stout, remains a named Defendant. Id. Plaintiffs
bring a cause of action against all Defendants in
their individual and official capacities under 42 U.S.C.
§ 1983 for violations of the Equal Protection Clause,
Due Process Clause, and failure to train. Id. at 30-35.
Plaintiffs further bring a cause of action for violations of their substantive Due Process rights, violations of the Fourth Amendment, Fifth Amendment
Takings Clause, and for negligence under state law.
Id. at 38-2. Plaintiffs also bring a cause of action for
conspiracy to interfere with Plaintiffs’ civil rights
under 42 U.S.C. § 1985, and for negligently failing to
prevent Plaintiffs’ alleged civil rights violations under

App.24a
42 U.S.C. § 1986. Id. at 45-46. Plaintiffs seek monetary
damages and injunctive relief. Id. at 47-49.
On March 21, 2018, Defendants filed an Amended
Motion to Dismiss Plaintiffs’ Second Amended Complaint under Rules 12(b)(1) and 12(b)(6), or in the alternative Motion for Summary Judgment. (Instrument
No. 33). Plaintiffs filed their Response in Opposition
to the Amended Motion to Dismiss on April 11, 2018.
(Instrument No. 36). On April 13, 2018, Defendants
filed their Amended Reply in Support of their Motion
to Dismiss. (Instrument No. 37).
III.
“A case is properly dismissed for lack of subject
matter jurisdiction when the court lacks the statutory
or constitutional power to adjudicate the case.” Home

Builders Ass’n of Miss., Inc. v. City of Madison,
Miss., 143 F.3d 1006, 1010 (5th Cir. 1998) (internal

quotation omitted). A district court may dismiss an
action for lack of subject matter jurisdiction under
Federal Rule of Civil Procedure 12(b)(1) on any one of
three separate bases: (1) the complaint alone, (2) the
complaint supplemented by undisputed facts evidenced
in the record, or (3) the complaint supplemented by
undisputed facts plus the court’s resolution of disputed facts. Ramming v. United States, 281 F.3d 158,
161 (5th Cir. 2001) (citing Barrera-Montenegro v.
United States, 74 F.3d 657, 659 (5th Cir. 1996)).
In examining a Rule 12(b)(1) motion, courts are
empowered to consider matters of fact which are in
dispute. See Williamson v. Tucker, 645 F.2d 404, 413
(5th Cir. 1981) (when determining jurisdiction, district
court may hear conflicting written and oral evidence
and decide for itself the factual issues). Any uncontro-

App.25a
verted facts in the complaint must, however, be
accepted as true. See Gaubert v. United States, 885
F.2d 1284, 1285 (5th Cir. 1989), rev’d on other grounds,
499 U.S. 315 (1991). The court must also construe
the complaint broadly and liberally, although argumentative inferences favorable to the pleader will not
be drawn. Id. When the court’s subject matter jurisdiction is challenged, the party asserting jurisdiction
bears the burden of establishing it. Life Partners Inc.
v. United States, 650 F.3d 1026, 1029 (5th Cir. 2011).
When a Rule 12(b)(1) is filed in conjunction with
other Rule 12 motions, the court should usually consider the Rule 12(b)(1) jurisdictional issues before addressing any attack on the merits. Ramming, 281 F.3d at
161. This prevents a court without jurisdiction from
prematurely dismissing a case with prejudice. Id. The
court’s dismissal of a plaintiff’s case because of lack
of subject matter jurisdiction is not a determination
of the merits and does not prevent the plaintiff from
pursuing a claim in a court that does have proper
jurisdiction. Id.
A motion to dismiss under Rule 12(b)(1) for lack
of subject matter jurisdiction should be granted only
if it appears that the plaintiff cannot prove any set of
facts in support of his claim that would entitle him to
relief. Ramming, 281 F.3d at 161.
IV.
Under Rule 8 of the Federal Rules of Civil Procedure, a pleading must contain “a short and plain
statement of the claim showing that the pleader is
entitled to relief.” Fed. R. Civ. P. 8(a)(2). The complaint
need not contain “detailed factual allegations,” but it
must include “more than an unadorned, the-defendant-

App.26a
unlawfully-harmed-me accusation.” Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009); Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 555 (2007).
“Motions to dismiss under Rule 12(b)(6) are
viewed with disfavor and are rarely granted.” Lormand
v. US Unwired, Inc., 565 F.3d 228, 232 (5th Cir.
2009) (internal quotation omitted). That said, when a
complaint does not meet the pleading requirements of
Rule 8, Rule 12(b)(6) authorizes dismissal of a civil
action for “failure to state a claim upon which relief
can be granted.” Fed. R. Civ. P. 12(b)(6). To survive a
motion to dismiss, the complaint must articulate “the
plaintiff’s grounds for entitlement to relief—including
factual allegations that when assumed to be true raise
a right to relief above the speculative level.” Cuvillier
v. Taylor, 503 F.3d 397, 401 (5th Cir. 2007) (quoting
Twombly, 550 U.S. at 555). Stated otherwise, in order
to withstand a motion to dismiss, a complaint must
contain sufficient factual matter, accepted as true, to
state a claim for relief that is plausible on its face.
Iqbal, 556 U.S. at 678 (quoting Twombly, 550 U.S. at
570); Turner v. Pleasant, 663 F.3d 770, 775 (5th Cir.
2011). A claim for relief is plausible on its face “when
the plaintiff pleads factual content that allows the court
to draw the reasonable inference that the defendant
is liable for the misconduct alleged.” Iqbal, 556 U.S.
at 678; Montoya v. FedEx Ground Package Sys., Inc.,
614 F.3d 145, 148 (5th Cir. 2010).
Under this rubric, dismissal is proper only if the
plaintiff’s complaint: (1) does not include a cognizable
legal theory, Ramming v. United States, 281 F.3d 158,
161 (5th Cir. 2001), or (2) includes a cognizable legal
theory but fails to plead enough facts to state a claim
to relief that is plausible on its face. Pleasant, 663

App.27a
F.3d at 775; see also Frith v. Guardian Life Ins. Co.,
9 F. Supp. 2d 734, 737-38 (S.D. Tex. 1998) (Gilmore,
J.) (holding that dismissal pursuant to Rule 12(b)(6)
“can be based either on a lack of a cognizable legal
theory or the absence of sufficient facts alleged under
a cognizable legal theory”).
When ruling on a 12(b)(6) motion, the Court may
consider “the complaint, its proper attachments, documents incorporated into the complaint by reference, and
matters of which a court may take judicial notice.”1
Wolcott v. Sebelius, 635 F.3d 757, 763 (5th Cir. 2011)
(internal citations and quotations omitted); see also
Tellabs, Inc. v. Makor Issues & Rights, Ltd., 551 U.S.
308, 322 (2007). The Court does not resolve any disputed fact issues. Davis v. Monroe City Bd. of Educ.,
526 U.S. 629, 633 (1999). Instead, the Court assumes
all well-pleaded facts contained in the complaint are
true. Wolcott, 635 F.3d at 763. The Court will not,
however “accept as true conclusory allegations, unwarranted factual inferences, or legal conclusions.” In re
Great Lakes Dredge & Dock Co., 624 F.3d 201, 210
(5th Cir. 2010) (internal quotation omitted). Similarly,
legal conclusions masquerading as factual conclusions
need not be treated as true. Blackburn v. City of
Marshall, 42 F.3d 925, 931 (5th Cir. 1995); see also
Iqbal, 556 U.S. at 678. Although all well-pleaded
facts are viewed in the light most favorable to the
plaintiff, Turner, 663 F.3d at 775; Gonzalez v. Kay,
577 F.3d 600, 603 (5th Cir. 2009), the Court “will not
strain to find inferences favorable to the plaintiff.”
Dorsey v. Portfolio Equities, Inc., 540 F.3d 333, 338
1 Matters of which a court may take judicial notice include, for
example, matters of public record. See Fin. Acquisition Partners
LP v. Blackwell, 440 F.3d 278, 286 (5th Cir. 2006).

App.28a
(5th Cir. 2008) (internal quotation omitted). Therefore,
“to avoid a dismissal for failure to state a claim, a
plaintiff must plead specific facts.” Dorsey, 540 F.3d
at 338 (internal quotation omitted).
V.
Defendants have filed a Motion to Dismiss pursuant to Rule 12(b)(1) and Rule 12(b)(6), and alternatively a Motion for Summary Judgment pursuant to
Rule 56(c) in one single document. (Instrument No.
33). Because Defendants have filed their Rule 12(b)(1)
Motion, requesting dismissal of Plaintiffs’ § 1983 and
state law negligence claims, in conjunction with their
Rule 12(b)(6) Motion, seeking dismissal of all of
Plaintiffs’ claims, the Court will consider the jurisdictional issues before considering Plaintiffs’ claims on
the merits.
A.
Defendants move to dismiss Plaintiffs’ § 1983
and negligence claims on the grounds that that they
are barred by the statute of limitations. (Instrument
No. 33 at 12-18). Defendants specifically note that
throughout the 2000s there was national news of backlogs of testing of SAKs throughout the United States
and that on February 13, 2013, the Houston Mayor’s
Office published a press release detailing the backlog.
Id. at 13-14. Defendants contend that based on the
press release, Plaintiffs’ causes of action accrued at
the latest in 2013. Id. Defendants further assert that
there is no tolling of the statute of limitations
because Plaintiffs’ own evidence supports the fact
that information was publicly available regarding the
backlog of the test kits starting in 2013. Id. at 17-18.

App.29a
In their Response, Plaintiffs contend that they
had no reason to know or suspect that Defendants
were allowing their individual SAKs to remain untested
until Plaintiffs were informed in 2016. (Instrument
No. 36 at 17). Plaintiffs further contend that this Court
should find that the statute of limitations is five
years because Plaintiffs’ injuries arose from sexual
assault. Id. at 17-18. Plaintiffs also contend that the
statute of limitations is tolled because of fraudulent
concealment, the discovery rule, and because this
case involves the continuous tort doctrine, which
delays the accrual date until a defendant’s tortious
acts cease. Id. at 17-22.
1.
Plaintiffs’ negligence claims are subject to a twoyear statute of limitations after the cause of action
accrues. Tex. Civ. Prac. & Rem. Code Ann. § 16.003(a)
(Vernon 1986). Accrual of a personal injury cause of
action under Texas law generally “occurs on the date
‘the plaintiff first becomes entitled to sue the defendant
based upon a legal wrong attributed to the latter’,
even if the plaintiff is unaware of the injury.” Vaught
v. Showa Denko K.K., 107 F.3d 1137, 1140 (5th Cir.
1997) (quoting Zidell v. Bird, 692 S.W.2d 550, 554 (Tex.
App.—Austin 1985, no writ)). See also S.V. v. R.V., 933
S.W.2d 1, 4 (Tex. 1996) (“As a rule, we have held that
a cause of action accrues when a wrongful act causes
some legal injury, even if the fact of injury is not
discovered until later, and even if all resulting damages
have not yet occurred.”).
Plaintiffs’ Second Amended Complaint alleges that
Defendants should have tested Plaintiffs’ SAKs within
30 days of collection. (Instrument No. 27 at 17, 18);

App.30a

see Tex. Gov’t Code § 420.042(a) (“A law enforcement
agency that receives sexual assault evidence . . . shall
submit that evidence to a public accredited crime
laboratory for analysis not later than the 30th day
after the date on which that evidence was received.”).
Beckwith’s SAK was collected on April 2, 2011. Id. at
11-12. Beckwith’s state law causes of action for
failure to timely test her SAK, therefore, would have
accrued 30 days later, in May 2011, regardless of
when Defendants notified her of the delay in testing.
Flores’ SAK was collected on or about September 20,
2011. Id. at 18. Flores’ state law causes of action for
failure to timely test her SAK similarly would have
accrued 30 days later, in late October 2011, regardless
of when Defendants notified her of the delay in testing.
Because Plaintiffs brought their state law causes of
action approximately six years later, on September
24, 2017, the two-year statute of limitations bars
Plaintiffs’ state law causes of action.
2.
In determining the statute of limitations for a
§ 1983 claim, district courts use the forum state’s
personal injury limitations period. Moore v. McDonald,
30 F.3d 616, 620 (5th Cir. 1994); see also Owens v.
Okure, 488 U.S. 235, 240-41 (1989) (“Because ‘§ 1983
claims are best characterized as personal injury
actions,’ we held that a State’s personal injury statute
of limitations should be applied to all § 1983 claims.”
(citing Wilson v. Garcia, 471 U.S. 261, 280 (1985))).
Because the Texas general personal injury limitations
period is two years, Plaintiffs’ § 1983 claims, as with
Plaintiffs’ state law negligence claims, are governed
by a two-year statute of limitations. See King-White
v. Humble Indep. Sch. Dist., 803 F.3d 754, 761 (5th

App.31a
Cir. 2015) (rejecting plaintiffs’ argument that the
court should extend the general personal injury limitations period for their § 1983 claims against the school
district for claims stemming from sexual assault or
abuse by a teacher).
While the statute of limitations is determined by
state law, accrual of a § 1983 claim is governed by
federal law. Moore, 30 F.3d at 620-21. “Under federal
law, the [limitations] period begins to run ‘the moment
the plaintiff becomes aware that he has suffered an
injury or has sufficient information to know that he
has been injured.’” Russell v. Bd. of Trs. of the Firemen, 968 F.2d 489, 493 (5th Cir. 1992) (quoting Helton
v. Clements, 832 F.2d 332, 335 (5th Cir. 1987)). A plaintiff’s awareness encompasses two elements: “(1) The
existence of the injury; and (2) causation, that is, the
connection between the injury and the defendant’s
actions.” Piotrowski v. City of Houston, 51 F.3d 512,
516 (5th Cir. 1995). A plaintiff need not realize that a
legal cause of action exists. Id. The requisite knowledge
that a plaintiff must have to begin the running of the
limitations period “is merely that of the ‘facts forming
the basis of his cause of action,’ . . . not that of the
existence of the cause of action itself.” Vigman v. Cmty.
Nat’l Bank & Trust Co., 635 F.2d 455, 459 (5th Cir.
1981) (quoting Azalea Meats, Inc. v. Muscat, 386 F.2d
5, 9 (5th Cir. 1967)). In other words, for awareness of
causation, a plaintiff “must have knowledge of facts
that would lead a reasonable person (a) to conclude that
there was a causal connection . . . or (b) to seek professional advice, and then, with that advice, to conclude
that there was a causal connection between the
[defendant’s acts] and injury.” Harrison v. United
States, 708 F.2d 1023, 1027 (5th Cir. 1983).

App.32a
Despite the nationwide news of backlogs of testing of SAKs kits throughout the United States and
the City of Houston’s press releases on the backlog in
testing, Plaintiffs assert that they had no reason to
know that Defendants had not promptly tested their
SAKs. Plaintiffs assert that Defendants had the
affirmative duty to notify Plaintiffs of the delay in
the testing of their SAKs. Plaintiffs’ assertion, however,
is contrary to the law. “A plaintiff who has learned of
facts which would cause a reasonable person to inquire
further must proceed with a reasonable and diligent
investigation, and is charged with the knowledge of
all facts such an investigation would have disclosed.”
Jensen v. Snellings, 841 F.2d 600, 606 (5th Cir. 1988).
In Flores’ situation, Plaintiffs allege that two
weeks after her assault, Defendants told Flores that
her SAK would be processed in three months’
time. Even assuming that the relevant injury was
Defendants’ delay in the testing of her SAK, rather
than her sexual assault, Flores’ § 1983 claims would
have accrued after three months had passed and her
SAK remained untested. A reasonable person in Flores’
position would have followed up with Defendants
regarding the testing of her SAK after three months
had passed. Flores did not investigate the status of
her SAK testing. Flores did not file a claim against
Defendants until 2017, which was approximately six
years after her SAK was taken. By failing to conduct
a diligent inquiry about the testing of her SAK,
Flores allowed her claim to slumber and become
stale.
Similarly, Beckwith allowed her claim to slumber.
Although Beckwith does not allege that Defendants
gave her a timeline when her SAK would be tested,

App.33a
the circumstances alleged in Plaintiffs’ Complaint
would undoubtedly have prompted a reasonable person
to investigate Defendants’ conduct further. Defendants
took Beckwith’s SAK on April 2, 2011. Subsequently,
a HPD detective allegedly called Beckwith and made it
seem like Beckwith’s rape was her fault and discouraged her from filing a report as it was unlikely the
suspect would be caught. Beckwith alleges that this
was the last time she heard from HPD for many years.
The HPD detective’s allegedly deliberate indifference
to her case and discouragement against filing a report
along with Defendants’ silence would have prompted
a reasonable person to inquire further. “The
requirement of diligent inquiry imposes an affirmative
duty on the potential plaintiff to proceed with a reasonable investigation in response to an adverse event.”
Pacheco v. Rice, 966 F.2d 904, 907 (5th Cir. 1992).
Beckwith did nothing for years. Then in 2015, HPD
contacted her to notify her that it had found a suspect.
Even after HPD contacted her, Beckwith did not
follow up until she unsuccessfully phoned HPD several
months later and HPD did not return her call. The
question is not when Plaintiffs knew that they had a
legal cause of action, but when they knew of “the
facts that would ultimately support a claim.” KingWhite, 803 F.3d at 762. Both Plaintiffs here had the
facts by the end of 2011 that would ultimately support
a claim that Defendants had delayed testing of their
SAKs. Because they did not file suit until September
2017, the two-year statute of limitations bars their
claims.
3.
Plaintiffs allege that the discovery rule and fraudulent concealment toll the statute of limitations.

App.34a
(Instrument No. 27 at 46-47). “When a federal cause
of action borrows a state statute of limitations, ‘coordinate tolling rules’ are usually borrowed as well.”
King-White, 803 F.3d at 764. Tolling of the statute of
limitations can occur in two types of cases. Id. In the
first type, tolling of the statute of limitations may
occur under Texas law from the “discovery rule.” Id.
The discovery rule applies if the “nature of the injury
incurred is inherently undiscoverable and the evidence
of injury is objectively verifiable.” Id. (quoting Childs
v. Haussecker, 974 S.W.2d 31, 36-37 (Tex. 1988).
However, the discovery rule does not allow a plaintiff
to idly sit on her hands. A plaintiff seeking to employ
the discovery rule must use diligence to investigate
the facts establishing the elements of her cause of
action. Willis v. Maverick, 760 S.W.2d 642, 644 (Tex.
1988). Neither of the Plaintiffs did so in this case.
They simply allowed their claims to slumber for
years, although the facts regarding their claims were
readily available to them. Accordingly, the Court
finds that the discovery rule does not apply here to
toll the statute of limitations.
An additional scenario supporting tolling of the
statute of limitations is where a defendant is “under
a duty to make disclosure but fraudulently conceals
the existence of a cause of action from the party to
whom it belongs.” Borderlon v. Peck, 661 S.W.2d 907,
908 (Tex. 1983). “Fraudulent concealment will not,
however, bar limitations when the plaintiff discovers
the wrong or could have discovered it through the
exercise of reasonable diligence.” Kerlin v. Sauceda,
263 S.W.3d 920, 925 (Tex. 2008).
Plaintiffs conclude that Defendants fraudulently
concealed the delay in testing of Plaintiffs’ SAKs.

App.35a
The evidence attached to the parties’ motions refutes
this conclusory assertion. On February 13, 2013, the
Houston Mayor’s Office published a press release
detailing the backlog in testing of sexual assault kits
at HPD and the steps that the City of Houston was
taking to clear up the backlog. (See Instrument No.
33-2). In December 2013, HPD launched a hotline for
sexual assault victims to contact HPD and to obtain
more information about their cases. (See Instrument
No. 33-9 at 12). HPD advertised the hotline through
billboards, television, and bilingual pamphlets distributed throughout the city. Id. The backlogged testing
of SAKs was public information that Defendants were
not hiding. Moreover, had Plaintiffs investigated the
status of their SAKs, they would have learned that
their SAKs had remained untested. Rather than
contact HPD, Plaintiffs waited for HPD to contact
them while they made no further inquiry even when
the circumstances would have led a reasonable person
to inquire further. Accordingly, the Court finds that
the doctrine of fraudulent concealment does not apply
here.
Plaintiffs also contend that the statute of limitations should be tolled because Defendants’ conduct
constitutes a continuing tort. (Instrument No. 36 at
20-21). “In a continuing-tort case, the wrongful conduct
continues to effect additional injury to the plaintiff
until that conduct stops.” Gen. Universal Sys. Inc. v.
HAL, Inc., 500 F.3d 444, 451 (5th Cir. 2007) (quoting
Upjohn Co. v. Freeman, 885 S.W.2d 538, 542 (Tex. App.
—Dallas 1994, writ denied)). “For continuing torts, ‘the
cause of action is not complete and does not accrue
until the tortious acts have ceased.’” Id. (quoting
Twyman v. Twyman, 790 S.W.2d 819, 821 (Tex.

App.36a
App.—Austin 1990), rev’d on other grounds, 855
S.W.2d 619 (Tex. 1993)). Plaintiffs have not alleged
that Defendants are continually committing a tort on
them, nor could they because Defendants actually
tested Plaintiffs’ SAKs by 2014. (See Instrument No.
33 at 14-15). Instead, Plaintiffs rely on Defendants’
continual failure to timely test SAKs for other putative
class members to overcome the staleness of their own
claims. Each individual potential class member is
free to bring their own claim if it is not stale.
However, where Plaintiffs can only show one instance
of allegedly wrongful conduct that was not repeated
to them and that occurred outside the limitations
period, Plaintiffs cannot seek to revive their claims
by tacking onto another, unidentified individual’s
potential claims.
Accordingly, the Court GRANTS Defendants’ 12
(b)(1) Motion to Dismiss and finds that the two-year
statute of limitations bars Plaintiffs’ state law
negligence claims and Plaintiffs’ claims under § 1983.
(Instrument No. 33).
B.
The Court has already addressed Defendants’
Rule 12(b)(1) Motion to Dismiss Plaintiffs’ § 1983
and state law negligence claims. See Section V.A.
Defendants also seek dismissal under Rule 12(b)(6)
of Plaintiffs’ remaining claims for violations of Due
Process, the Fourth Amendment, Fifth Amendment,
and for conspiracy to violate Plaintiffs’ civil rights
under 42 U.S.C. §§ 1985 and 1986. (Instrument No.
33 at 18-25).

App.37a
1.
Plaintiffs’ Second Amended Compliant brings a
cause of action for “active due process violations”
without specifying if they are brought pursuant to
§ 1983. (Instrument No. 27 at 36-37). Plaintiffs specify
that they and the putative class members have the
fundamental right to control their genetic information
and that Defendants have violated their substantive
due process rights. Id. at 38. Plaintiffs do not specify
if they are also bringing a claim for violations of
procedural due process rights. Defendants move to
dismiss Plaintiffs’ Due Process claims, arguing that
Plaintiffs cannot show that they were deprived of
their lives, liberty, or property as their SAKs were
sent for testing. (Instrument No. 33 at 19-20).
To prevail on a § 1983 action asserting a due
process violation, “a plaintiff must first identify a
life, liberty or property interest protected by the
Fourteenth Amendment and then identify a state
action that resulted in a deprivation of that interest.”
Blackburn v. City of Marshall, 42 F.3d 925, 935 (5th
Cir. 1995). Although the parties do not dispute that
Plaintiffs may have a property interest in their DNA
samples, the issue here is whether Defendants deprived
them of that interest by delaying to test their
SAKs. Plaintiffs voluntarily provided their SAKs to
Defendants. Defendants investigated Plaintiffs’ sexual
assaults and charged the perpetrators after discovering their identities. Despite Plaintiffs’ hypothetical
assertion that prompt testing of their SAKs would
have resulted in a quicker apprehension of their perpetrators, it is well settled law that, for purposes of
the Due Process Clause, state actors have no duty to
investigate crimes. See Town of Castle Rock v.

App.38a

Gonzales, 545 U.S. 748, 768 (2005) (“the benefit that
a third party may receive from having someone else
arrested for a crime generally does not trigger protections under the Due Process Clause, neither in its
procedural nor in its ‘substantive’ manifestations.”);
Lisa R.S. v. Richard D., 410 U.S. 614, 619 (1973) (“a
private citizen lacks a judicially cognizable interest
in the prosecution or nonprosecution of another.”);
see also Mitchell v. McNeil, 487 F.3d 374, 378 (6th
Cir. 2007) (“There is no statutory or common law
right, much less constitutional right, to an investigation.”). Here, there is no dispute that Defendants
investigated the sexual assaults and actually found
and charged the perpetrators. Plaintiffs’ contention,
however, is that Defendants failed to test the SAKs
promptly to identify the perpetrators sooner. Because
the Due Process clause does not require state actors
to carry out timely police investigations, any claims
of procedural and substantive due process violations
fail.
Accordingly, the Court GRANTS Defendants’ Rule
12(b)(6) Motion to Dismiss Plaintiffs’ claims of active
due process violations. (Instrument No. 33).
2.
Plaintiffs allege that Defendants unreasonably
searched and seized their SAKs and led Plaintiffs to
believe that their SAKs would be tested in a timely
manner. (Instrument No. 29-32). Defendants move to
dismiss Plaintiffs’ Fourth Amendment search and
seizure claims because Plaintiffs consented to the
collection of the SAKs. (Instrument No. 33 at 21).
A Fourth Amendment “search” occurs when an
official infringes “an expectation of privacy that society

App.39a
is prepared to consider reasonable.” United States v.
Jacobsen, 466 U.S. 109, 113 (1984). A Four Amendment “seizure” of property occurs when an official
meaningfully interferes with an individual’s possessory
interests in that property. Id. Consent to either search
or seizure, so long as it is voluntary, however, renders
the official’s actions reasonable and lawful under the
Fourth Amendment. United States v. Zavala, 541
F.3d 562, 576 (5th Cir. 2008); see also Schneckloth v.
Bustamonte, 412 U.S. 218, 222 (1973) (“a search
authorized by consent is wholly valid.”). Even assuming, as Plaintiffs request, that the hospitals that took
Plaintiffs’ SAKs are government actors, Plaintiffs’
Fourth Amendment claims lack merit because they
consented to Defendants collecting their genetic material. Plaintiffs recognize in their Second Amended
Complaint that Defendants collected the SAKs and
eventually tested them with the consent of Plaintiffs.
While Plaintiffs now contend that the consent was
based on their belief that Defendants would test their
SAKs promptly, their contention does not meet the
standard for showing involuntary consent. Consent is
involuntary if it was “coerced, by explicit or implicit
means, by implied threat or covert force.” Schneckloth,
412 U.S. at 228. Plaintiffs have not alleged any facts
that would meet the definition of involuntary consent.
Accordingly, the Court GRANTS Defendants’ Rule
12(b)(6) Motion to Dismiss Plaintiffs’ Fourth Amendment claims. (Instrument No. 33).
3.
Plaintiffs also bring a claim under the Fifth
Amendment Takings Clause, alleging that “[b]ecause
the City of Houston has and is retaining the SAKS,

App.40a
Plaintiff’s and Putative Class Members’ genetic material contained in the SAKS constitutes a per se taking.”
(Instrument No. 27 at 41). Defendants move to dismiss the claim because Plaintiffs cannot show that
Defendants collected the SAKs for a “public purpose.”
(Instrument No. 33 at 22-23).
The Fifth Amendment Takings Clause “requires
payment of compensation whenever the government
acquires private property for a public purpose, whether
the acquisition is a result of a condemnation proceeding or a physical appropriation.” Tahoe-Sierra Pres.
Council, Inc. v. Tahoe Reg’l Planning Agency, 535 U.S.
302, 321 (2002) (emphasis added); E. Enters. v. Apfel,
524 U.S. 498, 522 (1998) (“The aim of the [Takings]
Clause is to prevent the government from forcing
some people alone to bear public burdens which, in
all fairness and justice, should be borne by the public
as a whole.” (internal quotation omitted)). Plaintiffs’
Second Amended Complaint sets forth how they
voluntarily submitted their SAKs for testing to serve
their own private interests to feel secure and seek
justice against their perpetrators. Plaintiffs’ allegations
that Defendants failed to timely investigate their
assaults and failed to promptly test their SAKs should
be remedied through tort law. They do not pertain to
a governmental taking.
Accordingly, the Court GRANTS Defendants’ Rule
12(b)(6) Motion to Dismiss Plaintiffs’ claims under
the Fifth Amendment Takings Clause. (Instrument
No. 33).
4.
Plaintiffs also allege that Defendants conspired
to interfere with Plaintiffs’ civil rights in violation of

App.41a
42 U.S.C. § 1985, and negligently failed to prevent a
known conspiracy to interfere Plaintiffs’ civil rights
in violation of § 1986. (Instrument No. 27 at 45-46).
Defendants move to dismiss Plaintiffs’ claims, contending that Plaintiffs have not alleged any facts that
show a conspiracy between more than a single entity.
(Instrument No. 33 at 23-24).
42 U.S.C. § 1985 provides three bases for relief,
of which Plaintiffs seek relief for deprivation of their
rights and privileges. (See Instrument No. 36 at 32);
42 U.S.C. § 1985(3). To state a claim under § 1985(3),
a plaintiff must allege facts that demonstrate (1) a
conspiracy; (2) for the purpose of depriving a person
of the equal protection of the laws; and (3) an act in
furtherance of the conspiracy; (4) which causes injury
to a person or a deprivation of any right or privilege
of a citizen of the United States. 42 U.S.C. § 1985(3);
Lockett v. New Orleans City, 607 F.3d 992, 1002 (5th
Cir. 2010). A conspiracy requires an agreement to
commit an unlawful act between or among two or more
separate persons. Ziglar v. Abbasi, 137 S. Ct. 1843,
1867 (2017). Generally, a single entity cannot conspire
with itself. See id. at 1866-68 (suggesting that officials
employed by the same governmental department do
not conspire when they speak to one another and
work together in their official capacities, but declining
to so hold); Hilliard v. Ferguson, 30 F.3d 649, 653
(5th Cir. 1994) (rejecting plaintiff’s § 1985(3) claims by
applying the “single entity” analysis to the defendant
school board).
Plaintiffs’ Second Amended Complaint alleges a
conspiracy between departments of the City of Houston,
which is a single entity. Other than naming the
individual Defendants, Plaintiffs have provided no

App.42a
factual allegations to show that the members were
not acting as a collective entity. While Plaintiffs have
also named Dr. Peter Stout of the Houston Forensic
Science Center as a Defendant, who is not an employee
of the City of Houston, Plaintiffs have not alleged
any facts establishing a conspiracy between the City
of Houston and Dr. Stout, nor can they establish that
the failure to promptly test the SAKs and investigate
the sexual assaults is a violation of a clearly established
constitutional right.
A § 1986 cause of action is dependent on successfully pleading a § 1985 claim first. Hamilton v.
Chaffin, 506 F.2d 904, 914 (5th Cir. 1975) (“Because
of th[e] failure to state a claim cognizable under
Section 1985(3), appellant may not recover under the
interrelated, dependent cause of action under Section
1986, action for neglecting to prevent a known conspiracy under Section 1985”); see e.g., McVea v. Swan,
No. SA:14-CV-73-DAE, 2014 WL 4471529 at *5 (W.D.
Tex. Sept. 10, 2014) (“As stated in the statute itself,
in order to establish a violation of § 1986, a plaintiff
must first establish a violation of § 1985.”). Because
Plaintiffs’ § 1985 claims fail, their § 1986 claims must
also fail.
Accordingly, the Court GRANTS Defendants’ Rule
12(b)(6) Motion to Dismiss Plaintiffs’ §§ 1985 and
1986 claims. (Instrument No. 33).
VI.
For the foregoing reasons, IT IS HEREBY
ORDERED that Defendant’s Rule 12(b)(1) Motion to
Dismiss Plaintiffs’ § 1983 and state law negligence
claims is GRANTED. (Instrument No. 33). Defendants
Rule 12(b)(6) Motion to Dismiss Plaintiffs’ remaining

App.43a
claims is GRANTED. (Instrument No. 33). Plaintiffs’
claims are DISMISSED with prejudice.
The Clerk shall enter this Order and provide a
copy to all parties.
SIGNED on this the 31st day of July, 2018, at
Houston, Texas.
/s/ Vanessa D. Gilmore
United States District Judge

App.44a
ORDER OF THE UNITED STATES
DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF TEXAS
GRANTING MOTION FOR A STAY
(MARCH 2, 2018)
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
________________________
DEJENAY BECKWITH and BEVERLY FLORES,
on their Own Behalf and Others Similarly Situated,

Plaintiffs,
v.
CITY OF HOUSTON, TEXAS, ET AL.,

Defendants.
________________________
Civil Action No. 4:17-CV-02859
Before: Vanessa D. GILMORE,
United States District Judge.
On this day, the Court considered the Motion of
Defendants the City of Houston, Mayor Sylvester
Turner, Police Chief Art Acevedo, the Houston Forensic Science Center, Peter Stout, Annise Parker, Kathy
Whitmire, Clarence Bradford, Sam Nuchia, Charles
McClelland, and Lee P. Brown To Stay Discovery
(the “Motion”) pending disposition of the pending
Motion to Dismiss or, in the alternative, Motion for

App.45a
Summary Judgment. Having considered the Motion,
the response, if any, and the papers on file, the Court
is of the opinion that the Motion has merit and
should be granted. It is, therefore,
ORDERED that the Defendants’ Motion to Stay
Discovery is hereby
GRANTED. It is further
ORDERED that discovery is stayed until the
Court rules on the motion to dismiss.
It is so ORDERED.
SIGNED this 2nd day of March, 2018.
/s/ Vanessa D. Gilmore
United States District Judge

